<html>
<title> - AN OVERVIEW OF THE BUDGET PROPOSAL FOR THE NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION FOR FISCAL YEAR 2017</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]








                  AN OVERVIEW OF THE BUDGET PROPOSAL 
                       FOR THE NATIONAL OCEANIC 
                    AND ATMOSPHERIC ADMINISTRATION 
                          FOR FISCAL YEAR 2017

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON ENVIRONMENT

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             March 16, 2016

                               __________

                           Serial No. 114-67

                               __________

 Printed for the use of the Committee on Science, Space, and Technology



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





       Available via the World Wide Web: http://science.house.gov
       
       
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

20-837PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
F. JAMES SENSENBRENNER, JR.,         ZOE LOFGREN, California
    Wisconsin                        DANIEL LIPINSKI, Illinois
DANA ROHRABACHER, California         DONNA F. EDWARDS, Maryland
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
MO BROOKS, Alabama                   ALAN GRAYSON, Florida
RANDY HULTGREN, Illinois             AMI BERA, California
BILL POSEY, Florida                  ELIZABETH H. ESTY, Connecticut
THOMAS MASSIE, Kentucky              MARC A. VEASEY, Texas
JIM BRIDENSTINE, Oklahoma            KATHERINE M. CLARK, Massachusetts
RANDY K. WEBER, Texas                DON S. BEYER, JR., Virginia
JOHN R. MOOLENAAR, Michigan          ED PERLMUTTER, Colorado
STEVE KNIGHT, California             PAUL TONKO, New York
BRIAN BABIN, Texas                   MARK TAKANO, California
BRUCE WESTERMAN, Arkansas            BILL FOSTER, Illinois
BARBARA COMSTOCK, Virginia
GARY PALMER, Alabama
BARRY LOUDERMILK, Georgia
RALPH LEE ABRAHAM, Louisiana
DARIN LaHOOD, Illinois
                                 ------                                

                      Subcommittee on Environment

                 HON. JIM BRIDENSTINE, Oklahoma, Chair
F. JAMES SENSENBRENNER, JR.          SUZANNE BONAMICI, Oregon
RANDY NEUGEBAUER, Texas              DONNA F. EDWARDS, Maryland
RANDY WEBER, Texas                   ALAN GRAYSON, Florida
JOHN MOOLENAAR, Michigan             AMI BERA, California
BRIAN BABIN, Texas                   MARK TAKANO, California
BRUCE WESTERMAN, Arkansas            BILL FOSTER, Illinois
GARY PALMER, Alabama                 EDDIE BERNICE JOHNSON, Texas
RALPH LEE ABRAHAM, Louisiana

















                            C O N T E N T S

                             March 16, 2016

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Jim Bridenstine, Chairman, 
  Subcommittee on Environment, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     6
    Written Statement............................................     8

Statement by Representative Suzanne Bonamici, Ranking Minority 
  Member, Subcommittee on Enviorment, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........    10
    Written Statement............................................    12

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................    15
    Written Statement............................................    17

Statement by Representative Eddie Bernice Johnson, Ranking 
  Minority Member, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................    19
    Written Statement............................................    21

                               Witnesses:

The Honorable Kathryn Sullivan, Undersecretary for Oceans and 
  Atmosphere, U.S. Department of Commerce, and Administrator, 
  National Oceanic and Atmospheric Administration
    Oral Statement...............................................    23
    Written Statement............................................    25
Discussion.......................................................    38

             Appendix I: Answers to Post-Hearing Questions

The Honorable Kathryn Sullivan, Undersecretary for Oceans and 
  Atmosphere, U.S. Department of Commerce, and Administrator, 
  National Oceanic and Atmospheric Administration................    60

            Appendix II: Additional Material for the Record

Documents submitted by Representative Jim Bridenstine, Chairman, 
  Subcommittee on Environment, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................   171

 
                   AN OVERVIEW OF THE BUDGET PROPOSAL
                        FOR THE NATIONAL OCEANIC
                     AND ATMOSPHERIC ADMINISTRATION
                          FOR FISCAL YEAR 2017

                              ----------                              


                       WEDNESDAY, MARCH 16, 2016

                  House of Representatives,
               Subcommittee on Environment,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 2:04 p.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Jim 
Bridenstine [Chairman of the Subcommittee] presiding.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Chairman Bridenstine. The Subcommittee on Environment will 
come to order.
    Without objection, the Chair is authorized to declare 
recesses of the Subcommittee at any time.
    Welcome to today's hearing titled ``An Overview of the 
Budget Proposal for the National Oceanic and Atmospheric 
Administration for Fiscal Year 2017.''
    I recognize myself for five minutes for an opening 
statement.
    I want to thank our witness, Dr. Sullivan, for appearing 
today before us to talk about the National Oceanic and 
Atmospheric Administration's fiscal year 2017 budget request.
    As a Representative from Oklahoma, a state hit regularly 
with severe weather, it is my responsibility to my constituents 
to promote policies that improve our forecasting abilities in 
order to save lives and property. My constituents, and the 
American people, deserve nothing less.
    So I want to say that I am encouraged to see that NOAA has 
begun to utilize the growing opportunities that can bring a 
paradigm shift to the weather prediction landscape. This year's 
budget has a number of initiatives that I support.
    First, the budget requests an increase to the Office of 
Space Commerce. This office will be the place where private-
sector companies interact with NOAA through requests for 
information, proposals, data buys, and other partnerships. A 
properly staffed and funded office where the private sector can 
engage with NOAA is a vital component in a changing forecasting 
paradigm.
    Second, I was pleased to see NOAA request funding to 
continue the Commercial Weather Data Pilot Program authorized 
by H.R. 1561, the Weather Research and Forecasting Innovation 
Act. This pilot program is an important signal to the private 
sector that NOAA is interested in new and innovative sources of 
data. Yesterday, we received the statutorily required report 
from NOAA detailing how the pilot program will be implemented, 
and I look forward to discussing that more during my questions.
    Third, I am encouraged to see NOAA incorporate a line item 
for the purchase of radio occultation data as a potential 
alternative to another constellation of COSMIC satellites. This 
Committee has conducted several years of oversight on various 
weather data sources and technologies, and we have found that 
GPS-RO is a very promising technology that has the potential to 
revolutionize our forecasts.
    I do have some concerns. Before any private-sector 
providers can engage with NOAA, it must lay out how these 
processes will work. NOAA released its Commercial Space Policy 
in January, a document laying out in very broad strokes how 
NOAA will utilize data acquisitions and other products from 
commercial companies. This policy was supposed to be quickly 
followed by a more specific process guide from NESDIS. We 
haven't seen that document yet.
    Finally, the budget request language for radio occultation 
data acquisition seems to call for the purchase of commercial 
data only if NOAA fails to acquire data internally first, 
meaning through the owning and operating of a government 
satellite constellations. In budget language and staff 
meetings, it does not appear that NOAA is fully considering all 
the alternative sources. I disagree if this is the strategy. 
Private providers have already launched some GPS-RO satellites, 
and others have plans to launch this year and next. NOAA should 
consider this option on an equal playing field, not only after 
exhausting all other options. Private-sector companies could 
improve our forecasting capabilities while also reducing the 
risk of a gap in our satellite data, an issue that has loomed 
over the agency for years.
    In the absence of action from NOAA, the House of 
Representatives continues to work with our Senate counterparts 
to bring H.R. 1561 to the finish line. This is bipartisan 
legislation which will statutorily compel NOAA to consider 
commercial data to augment our currently fragile satellite 
systems in orbit. This bill will also increase NOAA's ability 
to conduct cutting-edge weather research needed to move to a 
day where there are zero deaths from tornados in this country.
    I look forward to discussing these issues and more today.
    [The prepared statement of Chairman Bridenstine follows:]
    

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Bridenstine. I yield back, and I recognize the 
gentlewoman from Oregon, the Ranking Member, Ms. Bonamici.
    Ms. Bonamici. Thank you very much, Mr. Chairman, for 
holding this afternoon's hearing, and welcome back, Dr. 
Sullivan, and thank you for your service to the National 
Oceanic and Atmospheric Administration and to our country.
    I'm looking forward to today's discussion about the 
President's fiscal year 2017 budget request and NOAA's 
priorities in the coming year.
    NOAA is a critically important agency tasked with helping 
our communities, our economy, and our ecosystems remain healthy 
and resilient in the face of an ever-shifting environment. NOAA 
conducts state-of-the-art research to understand and predict 
changes in weather and the climate, as well as in the oceans 
and our coasts. This science is used to create products and 
services that inform decision-making by a diverse set of 
stakeholders, including emergency managers, farmers, pilots, 
and utility operators. NOAA is an agency that has a direct 
effect on the livelihood of all of our constituents.
    In Oregon, NOAA helps coastal residents decide when it's 
safe to go fishing and if the shellfish they are harvesting or 
buying for dinner are free from harmful algal blooms. Their 
work supports the wine industry in Yamhill County, for example, 
as they grow grapes that become Oregon's world-famous pinot 
noir. And NOAA assists people in Oregon, and across the 
country, in planning for and responding to extreme weather 
events and natural hazards like heavy precipitation, drought, 
earthquakes, and tsunami.
    Overall, I am pleased that the President's budget request 
recognizes the importance of NOAA to the economic security of 
our Nation. The budget request also recognizes that NOAA's 
critical mission of science, service, and stewardship can only 
be accomplished through a robust observational infrastructure.
    I'm interested in learning more today about the agency's 
progress in developing and launching the next generation of 
environmental satellites, its efforts to recapitalize an aging 
fleet of survey vessels, and NOAA's plans to speed the 
transition of cutting edge-research into operational use.
    Earlier this month, Oregon became the first state to enact 
legislation that would eliminate the use of coal-fired power. 
The law requires that Oregon accomplish this goal by 2035 and 
that the State double it renewable energy production by 2040. 
Oregonians know that climate change is the biggest 
environmental challenge of our time and they want to lead the 
way as the Nation and world starts to shift to cleaner energy 
sources.
    So I am especially pleased that the proposed budget 
recognizes the growing demand for climate data, especially at 
the regional level. The budget seeks to address this need for 
regional information and tools by expanding the Regional 
Integrated Sciences and Assessments program into an additional 
region and by serving--region and by serving new communities in 
regions where the program already exists.
    The proposed budget also seeks to improve our understanding 
of ocean acidification and the effect ocean health and climate 
variability can have specifically on fish stocks, but also on 
our economy at large. Many people fish for a living in Oregon, 
Washington, and other coastal communities, and this is 
something that's causing serious concern. In fact, regional 
fishery managers are considering a closure of Oregon and 
Washington ocean salmon fisheries north of Cape Falcon. The 
warming of the ocean has been devastating for salmon runs. The 
predictions for coho returns this year is half of last year's 
forecast.
    This is a problem for our ocean economy. According to the 
World Bank, more than 350 million jobs globally are tied 
directly to our oceans. Fisheries alone represent $108 billion 
a year in trade. In the United States, 58 percent of the 
Nation's GDP, or $8.3 trillion is generated by the counties 
that are adjacent to our oceans and our Great Lakes.
    Although I am generally pleased with the President's budget 
request for NOAA, I will mention a specific concern. The 
Cascadia Subduction Zone sits off the coast of Oregon and off 
the northwest coast. It is not a matter of if but a matter of 
when another earthquake occurs, triggering a massive tsunami 
with potentially catastrophic results.
    A researcher from Oregon State University, Dr. Chris 
Goldfinger, said ``The gap between what we know and what we 
should do about it is getting bigger and bigger, and the action 
really needs to turn to responding. Otherwise, we're going to 
be hammered.''
    Therefore, I trust you will understand my concern with the 
proposed reduction of the education and awareness grants 
through the National Tsunami Hazard Mitigation Program. These 
grants are designed to help communicate threats to vulnerable 
communities and assist in the development of response 
strategies. We should not and we cannot neglect this critical 
last step.
    Mr. Chairman, thank you, again for holding this hearing. I 
look forward to working with you and our colleagues to ensure 
that NOAA has the resources it needs to fulfill its missions of 
protecting life and property, and to getting some important 
legislation like the reauthorization of the Tsunami Warning, 
Education, and Research Act and the Weather Research and 
Forecasting Innovation Act signed into law.
    I yield back the balance of my time.
    [The prepared statement of Ms. Bonamici follows:]
    
    
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
    Chairman Bridenstine. I'd like to thank the Ranking Member 
from Oregon, Ms. Bonamici, for her opening statement, and 
recognize the Chairman of the full Committee, Mr. Smith.
    And before doing so, I'd like to note that everybody on the 
Republican side other than me is from Texas. I think this 
Committee is not sufficiently balanced appropriately for a guy 
from Oklahoma.
    Mr. Weber. Mr. Chairman, we will get you an application 
when this is over.
    Chairman Smith. Thank you, Mr. Chairman.
    We are here to discuss the President's fiscal year 2017 
budget request for the National Oceanic and Atmospheric 
Administration. This year, NOAA's request comes in at $5.8 
billion.
    While I support elements of NOAA's budget, other parts of 
the President's budget request cannot be justified. For 
example, the Administration's request continues to increase 
funding for climate research at the expense of other important 
areas of research. This administration continues to prioritize 
climate funding over weather research. The President's budget 
requests $190 million for climate research while only $100 
million is dedicated to weather research. NOAA should fully 
fund weather research as authorized in the House-passed 
bipartisan Weather Research and Forecasting Innovation Act. It 
is NOAA's job to monitor the climate and disseminate data to 
the public.
    But under this administration, this usually takes the form 
of monthly news releases that that fail to include all relevant 
data sources. For example, the agency often ignores satellite 
measurements, which are considered by many to be the most 
objective. NOAA and NASA both claimed, for example, that 2014 
was the hottest year on record. However, scientists at NASA 
concluded that they were only 38 percent certain that 2014 was 
in fact the hottest on record. NASA buried this statistic in a 
footnote to their report.
    Similarly, in 2015, NOAA and NASA's joint news release for 
the temperature of 2015 did not mention satellite data. 
However, a prominent satellite data set from the University of 
Alabama at Huntsville showed that 2015 was only the third 
warmest year on record and another widely used satellite 
dataset showed that 2015 was only the fourth warmest on record, 
contrary to NOAA's claims. The truth is that neither 2014 nor 
2015 were the hottest year on record. Satellite data, which 
NOAA had access to, clearly refutes NOAA's claims.
    Likewise, a recent report presented at the American 
Geophysical Union and coauthored by the Texas and Alabama state 
climatologists has called into question the placement and 
quality of many ground stations across the United States. The 
report concluded that this may have resulted in inaccurate 
temperature readings used by NOAA. Instead of hyping a climate 
change agenda, NOAA should focus its efforts on producing sound 
science and improving methods of data collection.
    NOAA should prioritize areas of research that significantly 
impact Americans today, such as ways to improve weather 
forecasting. Unfortunately, climate alarmism often takes 
priority at NOAA. This was demonstrated by the agency's 
decision to prematurely publish the 2015 study that attempted 
to make the two-decade halt in global warming disappear. The 
study, led by NOAA meteorologist Mr. Thomas Karl, used 
controversial new methods to readjust historical temperature 
data upward. The goal was clear from the start: remove a 
weakness in the administration's climate change agenda.
    This Committee began an investigation last July to examine 
NOAA's use of data in this study as well as their role in 
carrying out the administration's extreme climate agenda. The 
Committee heard from whistleblowers that the study was rushed 
into publication and that internal debate was stifled before 
moving forward. Even more suspicious was the timing of this 
study. It was published just as the administration was about to 
propose its final Clean Power Plan regulation at the United 
Nations' Paris Climate Change Conference. This controversial 
study appears to serve only one purpose: to promote the 
Administration's drastic and costly regulations.
    Well-respected scientists have recently rebutted NOAA's 
claims. A new peer-reviewed study, published in the journal 
Nature, confirms the halt in global warming. According to one 
of the study's lead authors, it ``essentially refutes'' NOAA's 
study. The media were quick to cover NOAA's study last year, by 
the way, but the many respected scientists who refuted NOAA's 
claims were ignored by much of the national media, including 
the very same outlets that had previously reported that there 
never was a halt in global warming.
    To date, NOAA has failed to comply with a lawfully issued 
subpoena. Instead of devoting time and resources to misinform 
the public, NOAA should give the Committee answers to our valid 
questions. NOAA should adhere to the scientific standards of 
being objective, independent of political considerations, 
timely, and having findings based on all available sources of 
information. Instead, NOAA ignores legitimate sources of 
objective information, such as satellite data, in order to 
promote the administration's biased climate change agenda.
    Thank you, Mr. Chairman, and I'll yield back.
    [The prepared statement of Chairman Smith follows:]
    
    
   
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
     
    Chairman Bridenstine. I'd like to thank the Chairman of the 
full Committee, Mr. Smith, for his opening comments.
    I now recognize the Ranking Member of the full Committee, 
Ms. Johnson, for a statement.
    Ms. Johnson. Thank you very much, Mr. Chairman, and I'd 
like to welcome Dr. Sullivan to the Committee, and thank you 
for being here today to testify.
    As many of us know, NOAA's research and services play a 
critical role in weather forecasting, enhancing our 
understanding of the environment, and, ultimately in helping 
ensure that the United States' economy remains strong. A key 
aspect of those efforts is to work with NOAA does--is the work 
that NOAA does to help us understand and address the potential 
impacts associated with climate change. Rising temperatures and 
sea levels, and changes in ocean chemistry and ecosystems pose 
a real threat to public health, the management of our fisheries 
and coasts, and the overall resiliency of our communities to 
extreme weather changes and events. NOAA's programs and 
activities and the tools and information they provide are 
central to our ability to understand, adapt to, and mitigate 
the impacts of a changing climate.
    The proposed budget request contains a number of programs 
and activities that will expand NOAA's capabilities and 
increase the resiliency of communities, but I'd like to comment 
on one new initiative that I find especially promising. NOAA is 
proposing to develop and operate the Nation's first integrated 
water prediction capability, meaning that NOAA wants to develop 
the ability to deliver street-level water forecasts to more 
than 100 million Americans. This level of detail and coverage 
could significantly improve our capacity to prepare for and 
respond to floods, droughts, and water-quality hazards.
    Unfortunately, those of us from Texas have seen our fair 
share of both flooding and droughts over the last few years and 
I'm certain that our local emergency managers and decision 
makers would have welcomed this capability.
    Overall, I am happy to see that the President's budget 
request for NOAA emphasizes the agency's critical roles in 
improving weather forecasts and in helping the United States 
act on climate change.
    I look forward to discussing these efforts, as well as the 
other important initiatives and programs that are contained in 
NOAA's proposed budget.
    Before I yield back, I'd like to address the Majority's 
ongoing investigation of NOAA's climate scientists. It is clear 
to me that this investigation is unfounded and that it is being 
driven by ideology and other agendas. The Majority has 
asserted, without offering any credible evidence, that NOAA and 
the climate science community, at large, are part of some grand 
conspiracy to falsify data in support of the significant role 
humans play in climate change. However, the overwhelming body 
of scientific evidence, across many different fields, has shown 
that this is not the case. There may be an ongoing scientific 
debate about the rate of warming over the last 15 years, but 
that does not change the basic facts according to science: the 
world is warming, the warming is caused mostly by humans, and 
there are significant risks associated with this warming.
    I hope my friends and colleagues on the other side of the 
aisle can move past this effort to create scientific 
controversy where it does not exist and instead focus on 
finding solutions to addressing the threat of climate change.
    I thank you, Mr. Chairman and I yield back the balance of 
my time.
    [The prepared statement of Ms. Johnson follows:]
    

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    Chairman Bridenstine. I'd like to thank the Ranking Member 
for her opening statement.
    Our witness today is the Honorable Kathryn Sullivan, 
Undersecretary for Oceans and Atmosphere at the U.S. Department 
of Commerce, and Administrator of the National Oceanic and 
Atmospheric Administration.
    Previously, Dr. Sullivan served as Assistant Secretary of 
Commerce for Environmental Observation and Prediction, as well 
as performing the duties of NOAA's Chief Scientist. She is a 
distinguished scientist, renowned astronaut, and intrepid 
explorer. Dr. Sullivan earned her doctorate in geology from 
Dalhousie University.
    I now recognize Administrator Sullivan for five minutes to 
present her testimony.

              TESTIMONY OF HON. KATHRYN SULLIVAN,

           UNDERSECRETARY FOR OCEANS AND ATMOSPHERE,

        U.S. DEPARTMENT OF COMMERCE, AND ADMINISTRATOR,

        NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION

    Ms. Sullivan. Thank you, Chairman Bridenstine, Ranking 
Member Bonamici, and members of the Subcommittee. I'm very 
pleased to be here today to discuss the President's fiscal year 
2017 budget proposal for NOAA.
    NOAA is one of the most valuable service agencies in the 
government. Americans rely upon our information and services 
every day, looking to our observations, forecasts and 
assessments for the foresight and the reliable information they 
need to live well and safely in this dynamic planet. The severe 
storms and flooding in the South over this past week remind us 
all just how vital these services are.
    Our 2017 budget request of $5.9 billion builds on the 
foundation established with the support of Congress to put this 
critical information into the hands of the public. Each of the 
proposed increases is a carefully chosen, targeted investment 
designed to meet the growing demand for services. In my remarks 
today, I'll highlight just a few points.
    First, this budget invests in the observational 
infrastructure needed to protect public safety and welfare. To 
produce the weather forecasts our citizens, military and the 
economy rely upon, we must ensure continuity of our satellite 
operations. The successful launches of DSCOVR and Jason-3 and 
the upcoming launches of GOES-R and JPSS-1 are major milestones 
in this regard. We appreciate Congress's support for the Polar 
Follow On program last year, and now request $393 million for 
PFO and next-gen technologies that set the stage for improved 
forecasts in the decades to come. We must also invest in the 
fleet of ships that provide critical ocean-observing 
capabilities. Without timely investment, our fleet will decline 
by 50 percent by 2028. We appreciate that $80 million Congress 
provided in the fiscal year 2016 Omnibus to begin 
recapitalization, and here request $24 million to complete 
design and construction of a regional survey vessel.
    Second, this budget focuses on community resilience. 2015 
saw ten United States weather and climate disaster events with 
losses of each one exceeding a billion dollars. Recognizing 
this enormous impact, the budget invests in the services and 
information the communities need to assess their risks and 
minimize losses ahead of, during, and after such extreme 
events. And water is at the heart of many environmental 
threats. There's either too much or too little, it's in the 
wrong place, or it's of poor quality. NOAA is uniquely 
positioned to bring both new research insights and the 
operational predictions the Nation needs to address the water 
challenges ahead.
    This budget includes $12.25 million to establish the 
Integrated Water Prediction initiative, the heart of which is 
an enhanced river flood forecast system that will increase the 
number of prediction points nationally 700 times from about 
4,000 to nearly 2.7 million, making it possible for us to give 
street-level forecasts to 100 million Americans that lack them 
today.
    Third, this budget makes investments that ensure our 
National Weather Services is second to none. Weather and 
climate impact approximately a third of the Nation's economy. 
They can cost billions of dollars and claim hundreds of lives 
per year. We remain firm in our commitment to build a weather-
ready Nation and provide citizens with timely, accurate and 
well-communicated forecasts.
    Our budget request includes funding to extend the operating 
life of two critical ground observing systems: the NEXRAD 
radar, which support about 85 percent of all tornado warnings, 
and ASOS, which is vital to aviation across the country. 
Extending the life of these critical systems for a fraction of 
the original cost is a wise investment.
    Finally, the budget aims to improve the operational core of 
this agency. To meet these national needs and give our 
customers the best service possible, we must have an adequate 
mission support infrastructure. I believe instead we are near a 
critical breaking point. For example, funding for our HR 
services has declined steadily since 2008 but the workload has 
risen. A result is a backlog of 1,800 vacancies, and the level 
of churn in our human resources workforce is twice that of 
other agencies. We must act now, and this budget requests $4.4 
million to address the most severe mission-support weaknesses.
    Finally, transforming the R&D of our world-class scientists 
into tangible benefits for the country currently takes far too 
long. To speed this up, we've developed a Research Transition 
Acceleration program based on proven methods and best practices 
from NASA, the Defense Department, and the private sector, and 
propose to fund it at $10 million.
    In sum, NOAA's fiscal year 2017 budget reflects our 
commitment to growing a strong economy that is built to last 
while being fiscally responsible and focusing on priority 
initiatives.
    I thank you.
    [The prepared statement of Ms. Sullivan follows:]
    
    

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
  
    Chairman Bridenstine. I'd like to thank Administrator 
Sullivan for her opening statement.
    I remind members that the rules limit us to five minutes 
each for our questioning, and I'd like to recognize myself for 
five minutes.
    Administrator Sullivan, in December before this Committee, 
the head of your satellite office, Dr. Volz, testified that a 
more detailed process guide for how commercial companies will 
partner with your agency would be produced following the final 
Commercial Space Policy. When I asked for a date, he testified 
that it would be released in January or February, and of 
course, now we're past that date. He recently told my staff 
that the document was off his desk and now ``in process.'' I 
was just wondering if you might know where that document is 
now. If it's within NOAA, maybe it's elsewhere in the 
administration. If you could share any information you have on 
that?
    Ms. Sullivan. Thank you for the question, Mr. Chairman.
    It is in final review within NOAA is my understanding. That 
was our original target of the January date, and we share your 
eagerness to have it out. Our goal with both the the policy and 
the process is to provide the private sector with both the 
policy clarity and stability that they seek as well as the more 
detailed steps they need to follow and the next beyond that 
will be specific technical details for different measurement 
sets.
    Chairman Bridenstine. And would you maybe at this hearing 
provide us a date for when we might be able to get that?
    Ms. Sullivan. I don't have a date certain at my fingertips, 
Mr. Chairman.
    Chairman Bridenstine. Okay.
    Ms. Sullivan. But I'll be happy to update my inquiry as 
soon as the hearing is over and get back to your staff.
    Chairman Bridenstine. That would be great if you could do 
that. Thank you.
    I'd like some clarification about the process by which NOAA 
will look to the private sector for radio occultation data. I'm 
encouraged to see the inclusion of private-sector data options, 
but I am hopeful that NOAA does not see this only as a 
secondary option. Can you share with us how you see this 
process working as far as integrating commercial data into the 
data assimilation systems?
    Ms. Sullivan. We see it as a very promising prospect and 
are moving accordingly to have the opportunity and the ability 
to test and evaluate it. It is a nascent proposition that the 
private sector can indeed provide such data so the process and 
the procedures we're laying out here will give us the 
opportunity under the pilot programs to do the testing and 
evaluating that can confirm whether in fact the data quality 
and reliability meet the standards required to sustain the 
accuracy and reliability of our forecasts.
    Chairman Bridenstine. Okay. I've just got a few minutes 
here. Hopefully we can do a second round of questions.
    Contrary to what we have heard from numerous NOAA officials 
that have testified before this Committee, I've heard from 
countless weather and data experts that World Meteorological 
Organization Resolution 40, WMO 40, does not require the 
release of all data to the world. In fact, it lists out 
specific types and in some cases amounts of data that is open 
for sharing. I do believe weather is a public good, and I 
understand the advantages the United States gets from our 
partnerships with other countries. However, there is a 
burgeoning weather satellite industry sitting on the sidelines 
because they are concerned that if they sell data to NOAA, you 
will turn around and give it away for free, which completely 
destroys the marketplace before it begins.
    I am not advocating for getting rid of WMO 40. I want to be 
clear about that. All I am asking is for us to actually abide 
by it. Will you commit to me that we can work together to craft 
rules for the treatment of weather data acquired from 
commercial space systems that does not undercut the emergence 
of a market while still maintaining that our government keeps 
its commitments to WMO 40?
    Ms. Sullivan. Mr. Chairman, we have been working closely 
with your staff over the months that this issue has been 
evolving. I promise you, we will continue to do that, and let 
me assure you, we're also working very closely with the WMO 
itself. I was just over in Geneva last week--the calendar's a 
bit of a blur--and met directly with the new Secretary General.
    Chairman Bridenstine. Thank you for that.
    I'll yield my time, or I'll yield my time back to myself, I 
guess, and recognize the Ranking Member, Ms. Bonamici.
    Ms. Bonamici. Thank you very much, Mr. Chairman, and I just 
want to follow up on the Chairman's comments.
    I hope that we can continue to work together on the Weather 
Research and Forecasting Innovation Act and find a way to get 
that through collaboratively, so I appreciate your willingness, 
Dr. Sullivan, to keep working on that.
    We know that the ocean is becoming more acidic as it takes 
up excess carbon dioxide from the air. On the West Coast, it's 
been especially difficult for shellfish larvae, and oysters and 
clams are vulnerable as well. The budget request proposes an 
increase of $11.7 million for NOAA's Ocean Acidification 
program. I support this increase. I'm leading a letter asking 
the Appropriations Committee to fulfill it.
    Can you please explain the need for this program and its 
potential benefits, and also how NOAA is translating its ocean 
acidification research into practices and strategies that 
benefit the industry? And I do want to save time for another 
couple questions.
    Ms. Sullivan. Yes, ma'am. Thank you very much for the 
question. We have heard loud and clear from constituents around 
all the coasts, and I would highlight in particular your state 
and Washington, about the need to expand monitoring for the 
water conditions for ocean acidification conditions. There is 
also still a considerable amount of research that needs to be 
done to understand the ocean graphic processes and clarify and 
better understand the mechanisms by which changing ocean 
acidification may affect shellfish and finfish and other 
species of key interest.
    To your question about translating it to practical benefit, 
the increased monitoring and research would allow us to 
continue and deepen our work hand in glove with the shellfish 
industry, in your state, for example, to make sure that we can 
give them the monitoring and early warning technologies that 
let them take actions on the farms to protect their larvae.
    Ms. Bonamici. Terrific. Thank you.
    It needs to be repeated that it isn't just the coastal 
communities that are affected because people across the country 
buy and eat shellfish that are affected.
    There's also been over the last couple of years a 
significant number of harmful algal bloom outbreaks at the 
Great Lakes and coastal communities, for example. Now, I was 
pleased to work with Representative Posey to secure passage of 
the Harmful Algal Bloom and Hypoxia Research and Control 
Amendments Act in 2014. Now, NOAA is currently requesting an 
additional $4 million to continue to develop and operationalize 
forecasts of harmful algal blooms, hypoxia, and other 
pathogens. How will this improved forecasting increase economic 
security?
    Ms. Sullivan. Thank you also for that question. We have 
developed through our labs the capabilities now to combine 
satellite measurements and in situ measurements in calculations 
that give communities such as the Great Lakes and the Gulf 
Coast in particular days of warning about when you're going to 
have a bloom that is of a toxic species and that will reach a 
concentration that could jeopardize municipal water supplies or 
fish and shellfish or beachgoers. The time has come. Those 
techniques are mature enough now to be sure that we can extend 
them to other coastal regions because we are now seeing 
increasing frequencies of blooms across all of the United 
States coasts.
    Ms. Bonamici. Thank you. And finally, in your testimony you 
mentioned that NOAA's mission support services are at a 
critical breaking point. There's one human resources 
professional for every 148 employees, and that is--peer 
agencies have nearly three times as much HR staff. You 
mentioned that this has impaired the agency's ability to fill 
the 1,800 empty positions. Can you explain how NOAA has sought 
to address these hiring shortages and what you need to ensure 
that our National Marine Fishery Service, our Weather Service, 
and other NOAA entities have the employees and the employee 
support services they need to serve the American people?
    Ms. Sullivan. Yes. It's a critical point, and the vacancies 
are concentrated in the National Weather Service and the 
National Marine Fisheries Service. We have looked to separate 
the high-touch functions where we really need people talking 
directly to our scientists and managers from the more 
mechanical things that facetiously, let me say typing up forms, 
and wherever possible outsource that mechanical processing to 
other parties so that our team can work on the front end of 
things.
    We've engaged OPM, we've engaged the Small Business, and in 
parallel with those actions, because they've not been 
sufficient to begin to reduce the backlog, we've been working 
with the Department of Commercial on the development of a more 
robust shared services model that promises tremendous 
improvement going forward provided we can make the transition 
to that model.
    The funding that we request for NOAA in this budget is 
really essential to continuing the contract services we have 
now in place and beginning that transition to the broader 
shared services model. It is our one pathway that offers the 
potential to get past this hurdle and back to where we have the 
full complement of expertise needed to do our mission.
    Ms. Bonamici. Thank you, and I know and appreciate, as I'm 
sure my colleagues do, the importance of having dollars in the 
field and in the research. However, that being said, for you to 
be able to do the work that you need, you must have those 
support services. So I look forward to working with you on 
that, and I'm out of time and yield back.
    Thank you, Mr. Chairman.
    Chairman Bridenstine. I'd like to thank the Ranking Member, 
and I recognize the chairman of the full Committee, Mr. Smith, 
for five minutes.
    Chairman Smith. Thank you, Mr. Chairman, and Dr. Sullivan, 
thank you for being with us today.
    My first question goes to RICO, and it is this. Have you or 
anyone you know been a part of any discussions about using the 
RICO statutes against anyone who might question some aspects of 
climate change?
    Ms. Sullivan. I have been part of no such conversations, 
Mr. Chairman.
    Chairman Smith. Okay. The Attorney General testified before 
the Senate last week that she had in fact been part of such 
discussions and had referred it to the FBI but she did not 
consult with you nor has anyone at this point?
    Ms. Sullivan. I have been part of no such conversations.
    Chairman Smith. Okay. That's reassuring to hear because I 
happen to believe that you shouldn't be prosecuted for 
disagreeing about climate change.
    My next question is this. You're familiar with NOAA's 
study, sometimes called the Karl study, that found that--or 
allegedly found that there had been an increase in global 
warming over the last 18 years. That study was refused by some 
well-respected scientists in an article that appeared in the 
publication Nature. I assume you've read the Nature article?
    Ms. Sullivan. I'm familiar with that paper.
    Chairman Smith. Do you still stand by the Karl study's 
conclusions or do you now recognize that those conclusions 
might have been weak and agree with the Nature scientists?
    Ms. Sullivan. I welcome the debate in the scientific 
literature that the full publication of the data and 
information in the Karl paper has enabled. That is precisely 
what the scientific process------
    Chairman Smith. Right, but both can't be------
    Ms. Sullivan. --designed to do.
    Chairman Smith. Both can't be correct. Do you feel that the 
NOAA study is still correct or do you think the Nature article 
is correct?
    Ms. Sullivan. If I recall correctly from the Nature paper, 
the authors of that study themselves say that the Karl study is 
a valuable scientific contribution.
    Chairman Smith. That wasn't my question. My question goes 
to the 18-year halt in global warming. The NOAA study said that 
there had been an increase in warming during that period. The 
Nature article said there had not been. With which do you 
agree?
    Ms. Sullivan. If I recall the original IPCC report from 
years ago that first used the word ``hiatus,'' that study also 
said that that did not contradict the fact that the linear 
trend of temperature continued------
    Chairman Smith. Again, I'm not talking about the linear 
trend. I'm taking about the 18 years. Do you agree that there 
was global warming or do you not agree that there was global 
warming?
    Ms. Sullivan. Mr. Chairman, I don't study the kinks and 
bumps in temperature curves at that level of detail and------
    Chairman Smith. The 18 years is important because a lot of 
studies said that there was no increase in global warming. You 
were one of the few that said there was. Again, I'll ask you 
the same question. Do you agree with the NOAA Karl study or do 
you agree with the Nature scientists?
    Ms. Sullivan. I stand by the quality and integrity of the 
scientific analysis that was published for all to challenge, 
confirm or verify in the Karl study, and I would be interested 
to follow the scientific debate as it goes forward.
    Chairman Smith. Okay. So you still say that the Karl study 
was accurate and you disagree with the nature scientists?
    Ms. Sullivan. I stand by the integrity and quality of the 
Karl study.
    Chairman Smith. Okay. I wasn't asking you about the 
integrity and quality. I assume that by that, though, you meant 
their conclusions as well?
    Ms. Sullivan. I believe they did a valid job of analyzing 
new data sets. They proffered analysis------
    Chairman Smith. Then that does answer my question. If you 
consider their conclusions to be valid, you agree with them; 
you disagree with the Nature scientists. If you want to be in 
the minority, that's fine. I just wanted to see what you felt 
on the record.
    My next question is this. To my knowledge, NOAA has not 
fully complied with our subpoena dated February 22nd. We did 
get some production two days ago but it was not the full 
comprehensive production that we requested. Do you intend to 
comply with our subpoena?
    Ms. Sullivan. Mr. Chairman, my staff continues to work on 
the details of these matters with your staff on an almost daily 
basis, and I assure you, we will continue to move forward on 
the path that they have agreed to make sure that we satisfy 
your needs.
    Chairman Smith. And so you do intend to comply in a timely 
manner?
    Ms. Sullivan. We fully respect the Committee's oversight 
responsibilities and have been working diligently since your 
very first letter to do precisely that.
    Chairman Smith. And so is it fair for me to say that you do 
intend to comply with the subpoena?
    Ms. Sullivan. We intend to continue working with your team 
to fulfill the requests that you've expressed.
    Chairman Smith. Okay. Thank you for that, and yield back, 
Mr. Chairman.
    Chairman Bridenstine. The Chairman yields back.
    I recognize the Ranking Member of the full committee, Ms. 
Johnson, for five minutes.
    Ms. Johnson. Thank you very much, Mr. Chairman.
    Dr. Sullivan, as you know, the various regions of the 
Nation including my own have been plagued with flooding and 
drought over the last several years. Therefore, I was pleased 
to see that the budget request included $12.2 million for a new 
water prediction initiative. As I understand it, NOAA plans to 
build up and leverage interagency efforts at the National Water 
Center in Alabama to create new and improved water predictions, 
forecasts, and warnings that will help local communities 
respond to and prepare for floods and droughts. Can you please 
provide me with a little bit more detail to this initiative? 
Specifically, how will the capabilities provided by this 
proposed initiative be different than the current service NOAA 
provides?
    Ms. Sullivan. Thank you for that question, Congresswoman, 
and maybe the simplest way for me to make that clear--I said 
some statistics in my commentary and my testimony about times 
700 of the number of points and a hundred million Americans, 
but, you know, a picture is often worth 10,000 words, and this 
is a map that shows the numbers of points that we currently put 
forecasts out for across the United States, those red 
triangles. That's the 4,000 points. Many of them are miles away 
from a downtown. They're on some run of a stream. The new model 
capability that we propose to launch provided we receive the 
fiscal year 2017 request turns that 2.7 million points. Well, 
what does that look like? It looks like that. It turns the map 
blue. It is almost contiguous coverage like dropping a net, a 
mesh over the country, and this means that in, you know, 
communities such as the ones in your area that were hit so bad 
just recently, the information about what will the water level 
be won't be a mile or two upstream or some main branch 
tributary comes in, it'll be in the neighborhood. It'll be 
right here where it matters to you.
    We have heard vividly from emergency managers across the 
country how powerfully important this would be to them in terms 
of their ability to better protect their citizens.
    Ms. Johnson. Thank you.
    As you know, the Majority has been investigating the peer-
reviewed climate research paper published by NOAA's scientists 
in the magazine Science last year, and I understand that the 
paper adds to the scientific body of work examining the concept 
of a slowdown or hiatus in the rate of global warming over the 
last 15 years or so.
    The Majority has alleged that the publication of the 
research paper was in some way rushed and that NOAA did not 
adhere to the Data Quality Act or the agency's scientific 
integrity process. I know that you have commented some but I'd 
like to also note that a separate scientific paper that 
included climate scientist Michael Mann published last month 
found that this hiatus was real but was temporarily masked by 
natural factors. Dr. Mann in a story about the paper stated the 
temporary slowdown in no way implies that human-caused warming 
has ceased or slowed down.
    I point this out to show that it is part of the scientific 
process. Different scientists examine different parts of 
similar issues and rarely come to identical conclusions. This 
does not mean that scientists or others were involved in some 
grand conspiracy or for political reasons as the Majority 
believes.
    With that in mind, Dr. Sullivan, can you please describe 
the agency's scientific integrity process, and can you please 
respond to the allegations which I think you just heard 
recently just now.
    Ms. Sullivan. Thank you. NOAA has a very strong and 
rigorous scientific integrity process that is very widely 
admired called by many a gold standard. We uphold it very 
strongly, very firmly, myself, my Chief Scientist, our research 
council, and it insists upon integrity and independence of 
science throughout the agency. It includes clear protections to 
prevent political interference, and in this matter, 
Congresswoman, let me assure you there has been no political 
interference.
    I had nothing to do with the timing of the report so I 
can't speak in detail to that. The final timing of the 
appearance of any publication is of course at the discretion of 
the publication itself. I do know in this instance the journal 
Science is one of the most highly respected journals globally, 
renowned for a very rigorous peer-review process, and 
recognizing the interest in this matter, in fact, scrubbed this 
paper with extra diligence, but at the end, when a paper comes 
out is dependent on the journal.
    Ms. Johnson. Thank you very much. I yield back, Mr. 
Chairman.
    Chairman Bridenstine. I now recognize the gentleman from 
Texas, Mr. Neugebauer.
    Mr. Neugebauer. Thank you, Mr. Chairman.
    Administrator Sullivan, thank you. Could you hold up that 
last map that you had a while ago? Yeah. And so--and you're 
trying to turn the map blue. Is that right? Or are you trying 
to------
    Ms. Sullivan. The blue color on this side shows the new 
density of points compared to just the red triangles.
    Mr. Neugebauer. Okay. Because I like maps that we try to 
turn red, so in the future if you want to------
    Ms. Sullivan. You're asking that I reverse those colors?
    Mr. Neugebauer. Would you reverse the colors for me? Thank 
you.
    Thank you for being here. One of the things since I've been 
on this Committee, and I had brown hair, I think, when I first 
got on this Committee, but you know, the satellite program 
has--you know, it's had its problems: cost overruns, you know, 
delays in getting those satellites flying. And you know, it's 
consuming a fairly substantial portion of the budget, and 
you've asked for increases over the years. Can you--and I want 
to associate myself with Chairman Bridenstine in that I think 
it's to our benefit, the taxpayers' benefit, especially with 
the fact that the private sector has, you know, really enhanced 
since I've been on this Committee their participation in space 
and now we're using, you know, private companies to launch, I 
think, to take supplies to the station and so forth. What's 
your vision about the future? Sometimes, you know, we have--
quite honestly, the agencies are resistant to, you know, 
bringing the private sector into that turf. NASA wasn't--hasn't 
been overly excited, as you know, in the past about, you know, 
transitioning some of the programs to the private sector.
    But to me, it makes a whole lot of sense because one of 
things that the private sector has the opportunity to do is get 
some cost recovery, you know, from commercial opportunities 
with the data that they receive from the satellites. So could 
you kind of give me your Administrator Sullivan position on 
that?
    Ms. Sullivan. We are quite intrigued. I mean, we watch the 
space sector evolve, as anybody does that's dependent on space-
related data. In the weather domain, we believe it is a 
promising but still quite nascent prospect to actually have 
data flows from private-sector satellites. There have been a 
number of claims there is some hardware in orbit from at least 
one company that I'm aware of, but really nothing proven to the 
level that we require for ingesting something into the National 
Weather Service, because if we make a mistake on that, we then 
degrade the forecasts that in fact Americans are depending on 
every single day.
    So our posture and our engagement with the private sector 
in this regard is just tempered by that concern to make sure we 
work together to define the best path forward that doesn't 
jeopardize the quality of American weather forecasting.
    I might just add, you know, we work hand in glove with the 
private sector in the design, development, launching, and 
flight operations of our satellites today. Those are primarily 
private-sector companies doing that work on our behalf, and 
across many NOAA mission areas from weather sensors to tsunami 
warning sensors, technologies pioneered in NOAA labs, we 
willingly and eagerly transitioned to the private sector. So if 
another country wants to install a tsunami warning buoy today, 
they actually buy it from the SCIC Company for just the reasons 
you've said.
    Mr. Neugebauer. I think one of the things that I would 
caution you, and it's again, sometimes the requirements that we 
require of the private sector exceed those that we require of 
ourselves internally, and that's designed, you know, to make it 
difficult to create any space for the private sector with 
``space'' not being a pun intended, but--so I would encourage 
you as you move forward is that, you know, we have to bring 
those people into the collaboration. I don't think it 
compromises the mission at what's going on at NOAA, and I think 
it actually has an opportunity to expand that mission and to 
free up, you know, very precious dollars that we don't have, 
you know, of your budget. I think we're going to have to go 
borrow about 20 percent of that, you know, and charge it to my 
children and my grandchildren, and they won't even be flying 
the same satellites, you know, when it comes time for them to 
be utilizing that data.
    So I would just say from my perspective and from a fiscal 
standpoint is that I would encourage you to make opportunities 
for the private sector to do that and work on that red map for 
me too while you're doing it.
    I yield back, Mr. Chairman.
    Chairman Bridenstine. The gentleman yields back.
    I would like to just add, I think his points are right on 
point. When you think about data from the commercial sector, 
though, we don't have any way of knowing whether or not that 
data is as good or better than NOAA's data until we get that 
process guide so that we have the standards necessary to 
validate the data. So--and I know we're working on that, and 
thank you for that.
    I now recognize the gentleman from California, Mr. Bera, 
for five minutes.
    Mr. Bera. Thank you, Mr. Chairman. Thank you to the Ranking 
Member.
    Thank you, Dr. Sullivan, for your service to our country 
and your service at NOAA.
    I often hear my colleagues say well, you know, they can't 
determine whether the climate's changing or not because they're 
not scientists. Now, I'm a physician by training. I am a 
scientist, not a climate scientist, but certainly trained in 
the scientific method and how you collect data, and at the 
surface if we just think about it, 2015 was the hottest year on 
record by quite a bit. You know, that's just objective data. 
And folks may say well, that's not a trend, but 2014 was the 
second most hottest year, again, objective data. 2010 was the 
third hottest year on record in recent memory. 2013 was the 
fourth. So, you know, as a trend, it doesn't take a scientist 
to realize that the climate's changing and we are experiencing, 
you know, record heat wave after record heat wave.
    Let's drill that down to what it means to the people. You 
know, in my own district in California and our state, we're 
going through severe drought-like conditions that are impacting 
everyone, you know, from our farmers to our consumers. 
Everyone's chipping in. In my own district, Folsom Lake, which 
serves, you know, close to half a million people in my 
community rely on Folsom Lake for drinking water, for surface 
drinking water. It's been at record lows. And yes, we are 
having a wetter winter. We are having some snow. But what we 
realized, you know, over the last 4 or five years is, when we 
look up at the Sierra Nevadas, our snowpack has been 
disappearing, and much of that precipitation when we get it is 
coming down as rain, not as snow. This is a crisis situation.
    In my district, we rely on Folsom Lake and Folsom Dam to 
help manage both flood risk as well as drought risk, and as we 
go through a joint federal project that will give us much more 
flexibility to manage both these conditions, weather 
forecasting becomes increasingly important, and the investments 
NOAA is making in better forecasting so we can better manage 
our water in the lake, knowing when we need to increase flows 
to create more capacity and also when we should hold back on 
water knowing that, you know, those storms aren't coming. So I 
appreciate the work you're doing.
    I was reading about the Cray supercomputer, and just 
managing the big data and all the points of data, and I'd be 
curious about the Cray supercomputer as well as other resources 
that NOAA has to help us better predict and forecast weather.
    Ms. Sullivan. Thank you very much for that question, Mr. 
Bera.
    The supercomputing is indispensable to this work. As you 
can imagine, you have to measure the entire globe and ingest 
the data and then run the calculations that let us have the 
kind of foresight that you're speaking about.
    One of the exciting projects to me, very specific to your 
interest, is something called Forecast-Informed Reservoir 
Operations, which our Weather Service with our research teams 
and our fisheries teams actually are pioneering out in the 
Russian River basin for just the reason you said. If we can 
tell a dam manager with the Corps of Engineers there's not so 
more rain coming for at least X amount of time, then they could 
hold the water that comes in a wave and an atmospheric river 
instead of letting water go downstream to make room in the 
reservoir. That has great potential to help add some precision 
and some greater margin to the water management in your state.
    Mr. Bera. Thank you. And anything we can do to help better 
manage that, provide the funding, make sure when we're writing 
the manuals that help us manage these reservoirs we're not 
relying on data from 30 years ago or 40 years ago; we're 
relying on the instruments that we have today, the tools that 
we have today, and again, in a state like mine, in a region 
like mine where we have the dual risk of both flood and 
droughts, we have to have those tools.
    So we very much appreciate the work that NOAA is doing. We 
want to make sure as we update the manual for Folsom Lake and 
the management of Folsom Dam we incorporate all that data and 
the forecasting data, and you know, again, from my perspective, 
this is a reality that we'll have to deal with. The climate is 
changing. Managing these resources has incredible impact on 
individual lives, on our economy, and the more we can recognize 
that, the quicker we can recognize that the climate's changing 
and we've got to manage this lifesaving asset and water. The 
sooner we do that, the better off we'll be. So thank you for 
your work.
    Ms. Sullivan. Thank you.
    Mr. Bera. I'll yield back.
    Chairman Bridenstine. The gentleman yields back.
    I now recognize the gentleman from Texas, Mr. Weber.
    Mr. Weber. Thank you, Mr. Chairman.
    Dr. Sullivan, are you a fisher person? I guess--is that----
--
    Ms. Sullivan. I was a fisher person of sorts when I was a 
little girl going with my dad, bass and trout fishing.
    Mr. Weber. Freshwater lakes?
    Ms. Sullivan. Mainly freshwater lakes, very occasionally 
offshore.
    Mr. Weber. Good. I get some questions on red snappers being 
from the Texas Gulf Coast. There's been some complaints about 
the data that's being collected, and your own testimony on page 
three says that the actual red snapper population has improved 
30 percent. Generally across the board most all the 
stakeholders agree--believe the data to be flawed. What steps 
have you all taken to improve that data?
    Ms. Sullivan. Mr. Weber, I don't have specifics about 
recent data improvement actions pertaining to Gulf snapper 
fishery right at my fingertips but I'd be happy to get back to 
you on that.
    Mr. Weber. Okay. That would be good.
    And then I was curious about one of the exchanges, I think 
between you and Ms. Bonamici, that there was salmon fisheries 
going to be closed off the West Coast because the water 
temperature had raised. Is that right? Are you aware of that?
    Ms. Sullivan. I'm not aware of the detailed parameters 
involved.
    Mr. Weber. Okay. All right. Fair enough.
    Changing gears on you a little bit. Last year, NOAA 
requested money to start the Polar Follow On program, which you 
received most of the funding, $370 million. Again this year 
you're requesting funding for $393 million. In the out years 
you will be requesting about half a billion dollars annually. 
JPSS and the GOES-R programs have experienced cost overruns and 
launch delays in addition to inclusion on the last two editions 
of the GAO's High Risk Report. Are you aware of that?
    Ms. Sullivan. I am aware of that.
    Mr. Weber. How can we be assured that NOAA has taken 
actions to prevent these next Battlestar Galactica satellites 
you're planning from experiencing those same problems?
    Ms. Sullivan. Thank you for the question. We did have some 
schedule and budget difficulties on both programs a number of 
years ago and have worked hand in glove with the contractors, 
redone schedules, redefined the budgets, improved our internal 
program and process management, and substantially strengthened 
our satellite team. Both the GOES-R and the JPSS programs have 
now been running on time, on budget, and holding their margins 
for 30, 36 months each. The programs are sound. They are 
stable, and we have now management capacity and program plans 
in place to be sure, for me to be confident that we will 
execute well on PFO.
    Mr. Weber. Do you anticipate them winding back up on the 
next High Risk Report?
    Ms. Sullivan. I can't speak for the General Accounting 
Office. It is certainly a risk. A gap in satellite data for 
weather forecasting is certainly a risk to the country that we 
are all keeping our eyes on. How GAO might classify either that 
risk or program management risks, we'll have to wait and see. 
But I have heard from our GAO examiners personally that they 
now regard the programs as well run and well managed.
    Mr. Weber. Well, I thought the term ``Battlestar 
Galactica'' was an interesting term, so may the force be with 
you as you continue.
    Does the Polar Follow On allow for any flexibility to take 
advantage of rapidly changing technologies and capabilities, or 
will the satellites we will be flying in the 2030s era, will 
they be using this old technology?
    Ms. Sullivan. The Polar Follow On program does two things, 
Congressman. It locks in some economic advantage to carrying 
forward existing instrument designs, which are very complex, 
and in a component of the program called EON-Microwave--EON-
MW--it does propose exactly what you're thinking of to put a 
small down payment on an investment that other parties have 
done the first investment in, a technology that offers the 
potential to substantially change the cost parameters on our 
most important microwave sounding instrument so that we do have 
new capabilities that are more cost-effective in the future.
    Mr. Weber. Is that the EON--are those the microwave 
sounders you're talking about?
    Ms. Sullivan. Yes, they are.
    Mr. Weber. Aren't there some private companies that are 
developing those?
    Ms. Sullivan. I know of no private company that's 
developing the kind of radiometer that makes these precise 
vertical measurements to the depth of the atmosphere that these 
specific instruments do.
    Mr. Weber. But you do know of companies that develop the 
microwave sounders?
    Ms. Sullivan. Not sounders--microwave receivers that do 
things like the GPS radio occultation.
    Mr. Weber. Okay. And are you--have you checked with them to 
see if there's a plan and process for them to begin developing? 
Are you working with them hand in hand?
    Ms. Sullivan. We are. We scout that sector actively. We 
stay engaged with the space community widely. The pilot 
programs that I've been discussing with the Chairman give both 
us and the companies the opportunity to really explore and for 
us to co-invest in helping them actually demonstrate that they 
have the capabilities they've said to us they aim to provide.
    Mr. Weber. Well, according to the National Space Policy of 
2010, NOAA is not supposed--doesn't need to develop that 
technology. So the more you could do it from a private 
standpoint I think it's kind of like what Congressman 
Neugebauer was talking about, the more tax dollars we save. 
Would you agree with that?
    Ms. Sullivan. If a technology exists and has been proven, I 
would certainly agree with that, but that is not currently the 
case in the microwave sounding arena.
    Mr. Weber. Okay. Mr. Chairman, I yield back.
    Chairman Bridenstine. The gentleman yields back.
    The idea, of course, behind the commercial interest on this 
Committee is sharing costs among the different commercial 
actors that want to buy that data--energy companies, 
transportation companies, agricultural companies--and 
ultimately then the government becomes one of many customers 
and that reduces the cost for the taxpayer.
    I'd now like to recognize Mr. Babin for five minutes.
    Mr. Babin. Yes, sir. Thank you, Mr. Chairman.
    Dr. Sullivan, NOAA Independent Review Team recommended a 
gap filler mission as a way to help mitigate potential gaps in 
the afternoon polar orbit and make NOAA's Polar Satellite 
program more robust. What is NOAA doing to address this 
recommendation, and how are those plans reflected in fiscal 
year 2017 budget request? And are there any other options that 
NOAA is examining that can enhance the robustness and 
resiliency of the Polar Satellite Programs?
    Ms. Sullivan. Thank you for that question, Mr. Babin. We 
have done a number of things flowing directly from the IRT's 
report. For one, we structured the Polar Follow On program in a 
fashion that allows us to shift directions on that if need be 
and launch a gap-filler satellite in the early 2020s time 
frame. That was not the direction we were heading prior to the 
IRT's report so they were very helpful input in that regard.
    The EON-Microwave request that is embedded within the Polar 
Follow On budget line is another one of those examples. As I 
have indicated, it is an existing technology. We propose to 
benefit from investments other parties have made in bringing it 
to its current stage, but to apply some NOAA investment to take 
it the next steps and really determine and confirm that it 
could meet the microwave sounding needs that we have. Should 
that prove true, and we're fairly confident that it would, then 
EON-Microwave has the prospect to serve as a gap filler as 
well.
    Mr. Babin. Okay. Thank you.
    And then also, what are the key risks that can affect 
NOAA's costs and schedule commitments for the polar and 
geostationary satellites, and what is NOAA doing to address 
these risks?
    Ms. Sullivan. Thank you for that question also. Some of the 
big risks that we had been prone to or vulnerable to in that in 
fact we've retired a little bit with the first-year funding for 
the Polar Follow On program because one of the biggest risks 
when you need multiple satellites to provide the kind of 
continuity that we need in the weather arena is that you break 
production, and the companies, the private-sector companies 
that are working on producing these, release their workforce, 
lose the tooling, lose the engineering expertise, so as the IRT 
also pointed out, we had basically been buying a satellite at a 
time, which is the least cost-effective way to do it. The Polar 
Follow On program moves us back in a direction of a robust 
constellation by the 2020s and gets back some of that 
obsolescence and workforce and engineering risk that happens 
when you start and stop complex--any complex program. So that 
is certainly one thing.
    We also internally have done a tremendous number of things 
to strengthen our internal processes and our management 
structure. We've worked very diligently with our colleagues at 
NASA, who actually run the contracts and do the procurement for 
us and with the contractors that they engage, and I think that 
the team now clearly has demonstrated by several years 
consecutive strong budget and schedule performance the team now 
is clearly well in hand and functioning in all cylinders.
    Mr. Babin. Okay, and then what is the lifecycle cost of the 
GOES-R program, and similarly, what is the lifecycle cost of 
JPSS's program? How do these costs of these programs compare to 
the costs of our partners you were mentioning? Specifically, 
does the Department of Defense and our European partners, do 
they incur similar high costs?
    Ms. Sullivan. I don't have all of those lifecycle costs 
right at my fingertips, Congressman Babin. I do know the JPSS 
program lifecycle cost remains steady at $11.3 billion, and 
again, I don't have Defense Department or European figures.
    I can tell you that they certainly are of the same order, 
as witness the European Union's recent launch of their 
Copernicus and Sentinel series satellites.
    Mr. Babin. Well, I was just wondering if they have dealt 
with the same number of delays and cost overruns that NOAA has 
had. Do you know?
    Ms. Sullivan. We are not out of family with agencies that 
produce large, complex space systems.
    Mr. Babin. Okay. Then over the last few days, and you even 
mentioned this in your opening statement, we've seen 
devastating floods in the southern United States. In fact, I 
have five of my nine counties that are in an emergency 
situation right now with an all-time record flooding of the 
Sabine River and flooding in the Neches and in the Trinity 
Rivers in Texas.
    As spring starts up this year, I'm concerned that severe 
weather outbreaks and tornados will again put American lives 
and property at risk, and I wonder, is it smart when we look at 
the President's budget to be cutting NESDIS, NOS, MOAO, and the 
National Weather Service? What do you think?
    Ms. Sullivan. I'm confident that this budget makes sound 
investments in the targeted places that are most central to 
public safety and the public welfare and will not be leaving us 
short on those hazards.
    Mr. Babin. Thank you, Mr. Chairman. I yield back.
    Chairman Bridenstine. I'd like to thank the gentleman from 
Texas.
    Regarding the distributed architectures that you talk about 
to mitigate risks, we fully support that. Polar Follow On is 
what you were describing. You could also do that through taking 
advantage of various commercial operators. The National 
Geospatial Intelligence Agency is doing that with remote 
sensing and imagery, and of course, communications. The 
Department of Defense is using distributed architectures with 
communications by leveraging commercial as well.
    I'd like to recognize the gentleman from California, Mr. 
Takano.
    Mr. Takano. Thank you, Chairman Bridenstine.
    Administrator Sullivan, the changing climate is already 
having visible impacts around the country. Perhaps nowhere is 
this change more apparent than among our coastal communities, 
which remain vulnerable to increasingly severe storms, rising 
sea levels, and altered marine ecosystems. I am pleased to see 
that the budget request reflects NOAA's commitment to enhancing 
the resiliency of our coastal communities.
    Can you please describe in more detail how the budget 
request will improve the resiliency of coastal communities 
including the $15 million increase NOAA is requesting to expand 
its Regional Coastal Resilience Grant program?
    Ms. Sullivan. Thank you very much for that question. I can 
perhaps best illustrate the vital need that you're referring to 
by the experience we had with the $10 million we were given for 
Regional Coastal Resilience Grants in fiscal year 2015. We 
received 196 proposals from communities across the country for 
that--for those dollars for a total amount of $151 million. We 
were able to fund only six programs, six proposals, out of that 
entire set, but those six proposals are enabling some 100 
communities to look at their vulnerabilities, the hazards that 
they are exposed to, and really begin to lay in concrete plans 
and take concrete actions from habitat restoration to shoreline 
protection, to natural infrastructure, to put themselves in a 
better footing with respect to the changing conditions that you 
cite, and that's why we're asking for an increase in that 
funding line this year.
    Mr. Takano. And these communities are--well, they're on the 
coast, of course, but the------
    Ms. Sullivan. They're all across the country.
    Mr. Takano. Yeah. Well, the budget request--I want to talk 
about polar orbiting for a moment. The budget request includes 
an increase of $8.1 million to explore options for the 
acquisition of radio occultation data from the polar orbit. 
This includes sustaining the international partnership with 
Taiwan to build the second set of sensors and evaluating the 
possibility of purchasing commercially available data.
    Can you begin by describing the value of this data and what 
the impact would be of losing this capability?
    Ms. Sullivan. Thank you for that question. This radio 
occultation data is a very valuable augmentation of the high-
precision sounding that we get from the instruments aboard our 
weather satellites. It helps calibrate and take out bias and 
inaccuracies that sometimes get into those other data sets. 
We've kept the door open to possibly going with the government 
solution, the COSMIC solution, for the simple reason that as I 
sit here today, that is a technically proven, known system. We 
know the data quality characteristics of that system. It would 
be what we've seen in orbit now with the predecessor. So that 
is a bird in the hand that we know the quality and 
characteristics of.
    As the Chairman has noted, and as we are committed to, we 
do propose in this budget to proceed with pilot studies, 
working collaboratively with the private sector, co-investing 
in the test and evaluation needed to see, to confirm whether 
the data sources that they propose to offer do in fact live up 
to those same quality standards.
    Mr. Takano. But would there be a significant--how can I say 
this? I mean, the fact that the uncertainty about whether the 
private data sources are reliable, what would that pose in 
terms of if they were not reliable? What would that present to 
us?
    Ms. Sullivan. If you look at all of the data streams that 
go into contributing to the quality and reliability of weather 
forecasts today, the radio occultation measurements rank quite 
high, in the top six or so of those data sets. They are 
valuable. We would not want to lose radio occultation.
    Mr. Takano. So an interruption in reliability would be a 
significant problem for us?
    Ms. Sullivan. It would be a concern.
    Mr. Takano. And then you describe how the evaluation of 
purchasing commercial radio occultation data through this 
request--or can you describe how the evaluation of purchasing 
commercial radio occultation data through this request will 
work in comparison to the Commercial Weather Data pilot 
program? Will this effort be distinct?
    Ms. Sullivan. It will follow the ground rules and 
guidelines that we--that come from our policy down to the 
process that is soon to come out and into the detailed 
technical specifications about particular data types, so about 
the GPS-RO, so the industry knows they have a stable governance 
environment for working with us but they also know what the 
particulars are that they're aiming at in terms of 
specifications.
    Mr. Takano. Well, thank you, Administrator. I appreciate 
your answers.
    I yield back.
    Chairman Bridenstine. The gentleman yields back.
    We're going to go for a second round of questions. If it's 
okay, I'll recognize myself for five minutes and then the 
Ranking Member for five minutes.
    Real quick. The stage that I think needs to be set is one 
of national security. In the last Congress, Chairman Wolf 
mentioned from the Floor of the House that the National Weather 
Service got hacked into. He attributed it to the Chinese, and 
it compelled NOAA to shut down some satellites for a period of 
time. It wasn't too long ago, I think it was in 2007, the 
Chinese used a direct ascent anti-satellite missile to shoot 
down one of their own satellites in low Earth orbit.
    The reason I think it is important for us to take advantage 
of commercial is quite frankly to very quickly disaggregate and 
distribute the architecture as you have rightly identified as 
one of our goals. One of the challenges to rapidly distribute 
the architecture is being able to buy data from commercial. 
It's why we are doing it in the Department of Defense. I'm also 
on the Subcommittee on Strategic Forces on the Armed Services 
Committee, and we deal a lot with communication architecture as 
well as remote sensing and imagery. This is why this is 
important, taking advantage of commercial. It not only 
complicates the targeting solution for the enemy but also they 
have to invest a whole lot more money to jam or hack into 
numerous different ground architectures as well. So it changes 
their calculation for how much they have to invest and those 
kind of things, and it could actually deter them from making 
those investments to begin with.
    This is why it is so important that we correctly interpret 
WMO 40, and--because if the commercial industry believes that 
the data purchased by NOAA is going to be given away to the 
world for free, then they won't create that data to begin with, 
and if they don't create the data, then it's not a global 
public good because it's not a good at all, which is a concern 
of mine.
    One of the areas we've been looking at is, how do we comply 
with WMO 40 and at the same time make sure that we're not 
destroying a market that would otherwise exist. Some of the 
areas we've talked about are resolution restrictions. If 
commercial operators are going to invest in new instruments and 
technologies and capabilities that are of higher resolution 
than what the government is building itself, then maybe we can 
protect that data and not give it away for free to the world 
and prevent that market from forming.
    Also, we've talked about data tiers. Maybe the first 20,000 
radio occultations can come from COSMIC and beyond that there'd 
be another tier of data where we can augment our systems with 
even more radio occultations, and of course, we've had 
testimony on this Committee indicating that more occultation--
there is no limit to the benefit of more occultations. We need 
more and more and more, and it gets the models better and 
better and better and in some cases we can actually lose some 
of the primary sensors when you have that much radio 
occultation data. And then of course, time delays. Certainly 
the data doesn't have to be shared to the world immediately but 
maybe if we delay it for 24 or 48 hours, we can create the 
market and be in compliance with WMO 40.
    So I wanted to talk--you mentioned that you had talked to 
folks in Geneva regarding WMO 40. Can you share with us what 
their thoughts were on it and kind of the direction they're 
thinking about going?
    Ms. Sullivan. Thank you for the question, Mr. Chairman. 
I've not been in discussion at this level of detail about 
particular tactics or methods with the Secretary General. He 
doesn't operate at that level either.
    But to the point of confirming that the world is changing, 
there are interesting and different prospects emerging. You 
know, the arrow of time only goes in one direction. We all know 
that. And it's important that we find ways forward that engage 
with and understand and explore these new prospects, and also 
that we do that in a way, to use an engineering term I know--
you'll understand from your pilot background--let's make sure 
that we do a make before break connection, like an astronaut 
with a tether or a mountaineer. These data are valuable to 
forecasts today as I know you appreciate very well. Let's make 
sure we've got our hand firmly on a real replacement that we 
know brings the same or better value before we let go of this 
one.
    In the policy framework, we've set out the process we hope 
to bring to you shortly and the specifications that we'll set 
up. The conversations we've had with industry on the subject 
have all been with that motivation.
    Chairman Bridenstine. Thank you for that. And just so you 
know, on the Armed Services side we're working with the 
Department of Defense. They're looking at commercial data buys 
as well to help accelerate this process again for national 
security reasons, which is a good thing.
    I want to switch gears real quick. I want to talk about 
spectrum. As I understand it, the administration has asked 
federal agencies to identify areas of spectrum that could be 
utilized for other purposes. There's a slide up. I just want 
everybody to look at it. It is also my understanding that 
weather data streaming from settlements to ground stations 
could be severely impacted if required to move or share 
spectrum with other users. Obviously when we open up spectrum 
and we share spectrum, we can jam ourselves, and I think NOAA 
and this Committee are going to be in agreement that the last 
thing we want to do is release spectrum to be used by other 
operators that would hinder our ability to predict severe 
weather.
    [Slide.]
    When you look at this slide here, you can see the areas 
that have been blacked out because of interference from other 
people using the same spectrum.
    Does NOAA advocate for moving or sharing spectrum when it 
comes to our weather satellites?
    Ms. Sullivan. Thank you, Mr. Chairman, and let me say at 
the outset how much we appreciate your keen understanding of 
this interest and its potential impact on our mission.
    We support the President's policy to recognize the growing 
arena of broadband in the world that we live in these days, but 
we do support ensuring that there is a clear and established 
process, realistic timelines, and that we, NOAA, are provided 
the means and the time that might be needed to provide what 
adjustments or protections to prevent this sort of interference 
happening.
    I know you have heard we're seeing interference even at one 
of the test sites where there is a pilot test of an 
exclusionary zone. We're still seeing that kind of interference 
from sources that are up to 100 miles away.
    Chairman Bridenstine. Over the horizon communications for 
the Department of Defense these days overwhelmingly is 
commercial. About 80 percent of it is commercial. That's 
within--a lot of it is within the Ka frequency spectrum, and in 
fact, the 5G networks are looking at maybe not cannibalizing 
but sharing more of that 5G, or more of that Ka spectrum, and 
it's very dangerous for the war fighters because ultimately 
they're the ones that need the information and they need it 
complete and they need it when they need it, and we don't need 
to be worrying about interference.
    With that, I will yield back the negative two minutes that 
I've taken and recognize Ms. Bonamici for as much time as she 
may consume.
    Ms. Bonamici. Thank you, Mr. Chairman, and I just want to 
follow up on your last two minutes that you yielded back 
because I think that this challenge of spectrum is something 
that we can work together on on a bipartisan basis with NOAA to 
make sure that that challenge is met because we certainly don't 
want interference, and there does need to be a process.
    I do, even though Mr. Weber's no longer here, want to 
respond to his comment for the record. I did mention in my 
opening statement that there are some regional fisheries' 
managers in the Northwest considering closure of Oregon and 
Washington ocean salmon fisheries in certain areas in large 
part because of the weak forecast for coastal coho salmon, to 
which is attributed warm water in the ocean. So I want to thank 
you, Administrator, for including in the Office of Oceanic and 
Atmospheric Research section climate competitive research on 
the impacts of climate on fish stocks. I think that research 
will be very helpful to the industry.
    I did want to follow up as well, Dr. Sullivan, on the 
comment that I made in my opening statement about the concern 
about the reduction of the education and awareness grants 
through the Tsunami Hazard Mitigation program. We found that 
different coastal communities are not only different in their 
topography but also have different communication needs, 
different awareness needs depending on how far it is to get out 
of the Tsunami Inundation Zone or, you know, how flat the 
ground is. There's lots of factors, and the grants are really 
designed to help communicate threats, especially to vulnerable 
communities.
    So can you talk a little bit about why that reduction is 
included in the budget?
    Ms. Sullivan. Thank you, Congresswoman. That budget does--
that request or that proposed change does request some of the 
hard choices we have to make to try to live within our means. 
We have many such programs that we know provide valuable 
information the communities use to address their resiliency and 
their protection from the specific hazards that they're facing. 
In this particular case, our judgment is that the TsunamiReady 
programs that runs in each community through our Weather 
Forecast Office provides an avenue to meet that need.
    Ms. Bonamici. Thank you. I hope so. It is really a serious 
issue with the coastal area, and it's hard--this will be hard 
to explain to my constituents but I will look forward to 
working with you on that other program and hope that that is 
sufficient to meet the needs.
    The Committee's also been interested in increasing the 
transition of research conducted in the Oceanic and Atmospheric 
Research Office to the National Weather Service. This is 
something that the Chairman and I spoke about when working on 
the weather forecasting bill. It appears that some real 
progress has been made between those line offices, and I'm 
pleased that the budget request includes $10 million to 
accelerate the transition of research to operations across 
NOAA. So can you please describe how NOAA plans to accomplish 
this goal, and will this address the need to accelerate the 
transition of research from the academic community and the 
private sector into NOAA operations, and if so, how?
    Ms. Sullivan. Thank you for that question. We've seen some 
great advances in our operational products in recent years. The 
High Resolution Rapid Refresh Model, which gives four times the 
resolution the ground, is one example. But that took almost ten 
years to get into operations, and there are a couple of factors 
in play that this budget proposes to address. One is shifting 
our high-performance computing models from stepwise acquisition 
to lease structures, which is one of our proposals, lets that 
capability evolve more seamlessly and more smoothly. But this 
program, the RTAP program, addresses the other problem.
    What we learned as we canvassed NASA and DOD, DARPA and 
private-sector entities is, good work that sits here on the 
research bench or in the journal ready to go and pertinent to 
certain needs doesn't get transferred across on its own. Magic 
does not happen. It takes a dedicated funding line and an 
intentionally built program structure such as the Defense 
Department has to reach into the research arena knowing what a 
need and unmet need is and help co-invest in the transition of 
that work, to refine it and tune it precisely to the 
operational needs so it can pay that dividend to the war 
fighter or to the citizens.
    We've worked carefully. My Chief Scientists has a 
background at the Office of Naval Research as well as earlier 
experience in NOAA. We have laid out the administrative 
structure. We have laid out the competitive guidelines. We've 
adopted the technology readiness levels, all of the structure 
needed to make sure that our researchers see how to move things 
along and our operators see where to reach, and with this 
budget we propose to start exercising those mechanisms at the 
$10 million level. The first round of the Congress give us this 
appropriation, we would focus internally to make sure we get 
the training wheels really running, but it is absolutely then 
our intent that this is the technique we can use to harvest 
from NSF or DOD or anywhere else where there's promising work 
that we could put to the benefit of the American people.
    Ms. Bonamici. Thank you very much.
    My time is expired. I yield back. Thank you, Mr. Chairman.
    Chairman Bridenstine. I'd like to thank the Ranking Member, 
and of course, everything you just mentioned from my 
constituency perspective, moving from a day where we have warn-
on detection to warn-on forecasts are critically important to 
my state of Oklahoma so we can get higher lead times for 
tornados and other things, so thank you for that.
    I'd like to thank the witness for her valuable testimony 
and the members for their questions. The record will remain 
open for two weeks for additional comments and written 
questions from the members. The hearing is adjourned. Thank 
you.
    [Whereupon, at 3:26 p.m., the Subcommittee was adjourned.]

                               Appendix I

                              ----------                              

                   Answers to Post-Hearing Questions
                   
Responses by The Hon. Kathryn Sullivan



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              Appendix II

                              ----------                              


                   Additional Material for the Record



     Documents submitted by Subcommittee Chairmain Jim Bridenstine



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]


</pre></body></html>
